AUDIT                       MEMO                      NO.39
                                                                           July 14, 2005


To:             Anne O’Donoghue
               Corey Booth
From:          Walter Stachnik
Re:             Operations Center Building Security

During an investigation, we learned that the Office of Administrative Services (OAS)
was concerned about building security at the Operations Center. OAS’s concerns
included building access and key cards issued to contractors.
We performed a limited survey on these two issues. Our detailed findings and
recommendations are presented below.

Building Access
The Operations Center has six entrances, at two of which guards are stationed. The
guards check employee, contractor, and visitor identification at these two entrances.
The four other entrances are unguarded, requiring a key card for entry. However,
unauthorized entry at these locations is possible by several means: the door could be
propped open, someone could follow an employee inside, or someone could borrow a key
card. OAS needs to mitigate the risk of unauthorized access.

        Recommendation A
        The Office of Administrative Services should take steps to reduce the risk of
        unauthorized entry to the Operations Center (such as assigning guards to the
        unguarded entrances, and/or by installing alarms on any unguarded entrances and
        designating them as emergency exits only).

Contractor ID (Key) Cards
Contractors, like Commission employees, are issued ID (key) cards, which allow them
access to Commission space, including the Operations Center. These key cards are
supposed to be returned to the Contracting Officer’s Technical Representative (COTR)
when the contractor ends work under a contract (Regulation SECR 5-2. Section B,
paragraph 4(1) (2)).
OAS is concerned that in many cases, COTRs are not obtaining contractor key cards
when contractor employees end their Commission work. In addition, current procedures
do not require COTRs to notify OAS when an employee of a contractor separates
(notification would allow OAS to deactivate the contractor’s key card).
Under Homeland Security Presidential Directive 12 (HSPD-12), the Commission has
established a task force to improve the security of ID cards issued to employees and
contractors. The Office of Information Technology (OIT) heads the task force. It has
representatives from OAS, the Office of Human Resources, the Office of Filings and
Information Services, and the Commission’s union. Staff from the Office of Inspector
General act as observers, and provide technical assistance.
One aspect of the task force’s work is the development of a database to track employee
and contractor ID cards. The database would allow all Commission COTRs to enter
contract information (including key card data) into the system.

       Recommendation B
       In consultation with the HSPD-12 task force, OAS should establish procedures
       requiring COTRs to verify that separating contractor employees have returned all
       Commission property issued to them, including their ID (key) card.

       Recommendation C
       In consultation with the HSPD-12 task force, OIT should ensure that the ID
       database being developed allows COTRs to enter information on the issuance and
       cancellation of contractor ID cards. OAS should have access to this information.



Cc     Eric Eskew
       Mary Head
       Chrisan Herrod
       Stephen Johnston
       Dan Lisewski
       Jim McConnell
       Darlene Pryor
